                                 EXPORT-IMPORT BANK
 OSVALDO L. GRATACÓS             of the UNITED STATES
 INSPECTOR GENERAL

FOR IMMEDIATE RELEASE
Media Contact: 202-565-3908
        El Paso Shipping Company Owner Sentenced For Scheme to
            Defraud the Export-Import Bank of the United States
July 18, 2013 - Washington, DC – The Office of Inspector General (OIG) for the Export-
Import Bank of the United States (Ex-Im Bank) announced that Octavio Maese-Cordero,
owner of a trucking and shipping company in El Paso, TX , was sentenced to serve 18
months in prison for his role in a scheme to defraud Ex-Im Bank of approximately
$2,371,860.
Judge David Briones, of the U.S. District Court in El Paso, TX, also sentenced Maese to 36
months supervised release and ordered Maese to pay $1,742,891.25 in restitution,
$2,371,859 in forfeiture and a $200 special assessment fee. Maese, a naturalized United
States Citizen, pled guilty on September 16, 2011, to one count of conspiracy to defraud the
United States and one count of wire fraud in connection with a scheme to defraud Ex-Im
Bank of approximately $2,371,860.
According to court documents, Maese was the owner of Jorsa Logistics and OMC Services,
shipping and trucking companies both located in El Paso. According to court records,
Maese admitted that he and co-conspirators created and signed false shipping documents
that were submitted to a lending bank in Baltimore, MD. The false shipping documents,
which falsely purported the shipment of construction equipment to Mexico, were
ultimately submitted to Ex-Im Bank to insure the financial transaction. Maese admitted
that, in fact, none of the construction equipment was purchased or exported to Mexico.
Maese and his co-conspirators caused a loss to Ex-Im Bank and the U.S. Government of
$2,371,859.
The Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s Office,
Western District of Texas, El Paso Division prosecuted the case. The case was investigated
by Ex-Im Bank OIG, Homeland Security Investigations in El Paso; Internal Revenue Service-
Criminal Investigation in Washington, D.C., and the U.S. Postal Inspection Service in
Washington, D.C.
Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by
filling gaps in private export financing. Ex-Im Bank provides a variety of financing
mechanisms to help foreign buyers purchase U.S. goods and services.
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or regulations,
fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of authority
connected with Ex-Im Bank's programs and operations. Additional information about the
OIG can be found at www.exim.gov/oig. Complaints and reports of waste, fraud, and abuse



             811 Vermont Avenue, N.W. Washington, D.C. 20571
related to Ex-Im Bank programs and operations can be reported to the OIG hotline at 888-
OIG-EXIM (888-644-3946) or via email at IGhotline@exim.gov.
